<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-323]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-323

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-950 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 28, 2016
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     3

                               LEGISLATION

Text of the manager's amendment to S. 2848, Inhofe-Boxer #1......     5
Text of S. 2848, to provide for the conservation and development 
  of water and related resources, to authorize the Secretary of 
  the Army to construct various projects for improvements to 
  rivers and harbors of the United States, and for other purposes    24
Text of S. 2808, to amend the John F. Kennedy Center Act to 
  authorize appropriations for the John F. Kennedy Center for the 
  Performing Arts................................................   295
Text of S. 2824, to designate the Federal building housing the 
  Bureau of Alcohol, Tobacco, Firearms and Explosives 
  Headquarters located at 99 New York Avenue N.E., Washington, 
  D.C., as the ``Ariel Rios Federal Building''...................   297
Committee Resolutions:
    Lease, U.S. Department of Homeland Security, Citizen and 
      Immigration Services, Dallas, Texas........................   299
    Alteration, District Courthouse, Pensacola, FL...............   300
    Au Sable River Harbor, Oscoda Township, Michigan.............   301
    Calcasieu River and Pass, Louisiana..........................   302
    Caseville Harbor, Huron County, Michigan.....................   303
    Cass River Flood Control Project, Frankenmuth, Michigan......   304
    Salton Sea and Tributaries, Riverside, Imperial, and San 
      Diego Counties, California.................................   305
    Yuba River Watershed, California.............................   306
 
                            BUSINESS MEETING

                              ----------                              


                        THURSDAY, APRIL 28, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Crapo, Fischer, Rounds, Sullivan, Carper, Cardin, Whitehouse, 
Merkley, and Gillibrand.
    Senator Inhofe. The committee meeting will come to order, 
and Senator Boxer and I are going to discourage anything that 
takes a long time.
    [Laughter.]
    Senator Inhofe. Because we have some deadlines that we have 
to meet that are important. We have worked hard on this 
legislation.
    And I would say this, Barbara, as soon as we have 11 people 
here, we are going to get into this thing. In the meantime, if 
there are comments you want to make.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Yes. And I will stop if we get a quorum, 
obviously.
    I am just so pleased that once again our committee is 
leading the way in restoring hope in the American people that 
we can work in a bipartisan fashion.
    The Water Resources Development Act of 2016 is the latest 
in a long list of bipartisan infrastructure bills produced by 
this committee. We have done it across these sometimes very 
solid party lines. I am hopeful we will continue our success of 
building broad support for legislation to repair aging 
infrastructure, grow the economy, and create jobs.
    We know we have issues with lead and water. It is not just 
in Flint; it is really starting to show up all over the 
country. And certainly what happened in Flint has put a 
spotlight on our infrastructure challenges. The American 
Society of Civil Engineers rates our Nation's infrastructure a 
D+. If one of our kids came home with that grade, we would say, 
uh-oh, we better change things. So we need to change things, 
and this WRDA bill certainly responds to this crisis, and I am 
so proud of that.
    It is not perfect. I know a lot of us could make it better. 
Certainly, if I had my way, I would, and Senator Inhofe would. 
I know Senator Fischer would. We would all try to do this a 
better way.
    But this is the sweet spot. This bill is the sweet spot. We 
can get it done and we can see additional investment in 
strengthening our levees, our dams, our navigation channels. 
And again I wanted to mention this lead contamination is 
occurring in aging lead pipes such as we find in Jackson, 
Mississippi, Sebring, Ohio, and Durham, North Carolina. I know 
in some places in my State we turn off the drinking water for 
the kids in school.
    The American people certainly have a right to expect safe, 
clean water when they turn on their faucets. But yet millions 
of homes across America still receive their water from 
crumbling pipes. And this isn't going to get any better; and we 
have to work on it. So this bill begins the much needed work to 
ensure safe, reliable drinking water.
    Also, we look at these critical programs that have been 
studied by the Army Corps, and they did some fine work. And 
people say, wow, you just did this a couple years ago; why do 
we have to move? Because the Corps has completed about 27 new 
studies that need to be authorized, or nothing is going to 
happen in our States. This is a really important bill for that 
reason.
    The bill authorizes projects to maintain vital navigation 
routes for commerce and movement of goods. Our ports and 
waterways, which are essential to the U.S. economy, moved 2.3 
billion tons of goods in 2014.
    We are going to save lives with this bill. Storms and 
floods in recent years have resulted in loss of life. They have 
wiped out entire communities. Nobody knows that better than the 
Senator from Louisiana. We continue to work to strengthen our 
levees. In my State, the capital, Sacramento, is at great risk, 
and I am happy to say the Corps has finished their work on that 
particular project, so that will be authorized as well.
    I will close with this. For the first time we look at 
innovative ways to create more water supply, and we really need 
that. And before I put our latest guest to sleep, I will stop 
and put the rest of my statement in the record.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Inhofe. Who do we have here? That is kind of neat.
    Senator Capito. Well, today is take your sons and daughters 
to work day, and this is my granddaughter, Celia.
    Senator Inhofe. Oh, isn't that neat?
    Celia, how are you, honey? Good. Speak into the microphone. 
How are you, honey?
    Ms. Capito. I'm good.
    [Laughter.]
    Senator Inhofe. You are good, all right.
    Senator Boxer. Did you get her from central casting or is 
this real?
    [Laughter.]
    Senator Inhofe. I hate to tell you this, but I have 20 of 
them just like that.
    [Laughter.]
    Senator Boxer. Twenty little Inhofes?
    [Laughter.]
    Senator Inhofe. Hey, let's get serious here.
    [Laughter.]
    Senator Inhofe. We do have some absolute deadlines, and as 
soon as we get 11 people here we are going to jump right into 
this thing.
    I want to make one comment about a concern that Senator 
Fischer has on IPCC. For years we have addressed this. I have 
been concerned about it, and my State of Oklahoma is the same 
as it is in your State. You have the same concerns, the same 
problems of farmers actually taking a back seat.
    We addressed this partially in our WRRDA 2014 and made some 
exemptions of those under, I think, 2,500 or something like 
that. But it didn't go far enough. So I have to say to my good 
friend from Nebraska, I agree with you. Unfortunately, this is 
a bill that we want to get through, and there has been a lot of 
give and take. If there any comment you want to make, this 
would be a good time while we are waiting for our 11 to show up 
here.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. If I could make a 
statement.
    I do appreciate your efforts in preparing the legislation 
before us today. I know that a great deal of the work from you 
and your staff went into this bill, and I commend you and the 
Ranking Member for your commitment to the American people to 
pass a WRDA bill every 2 years. This bill continues the 
accelerated project delivery and construction streamlining 
theme from WRRDA 2014. It is a critical part of our continued 
effort to provide the American people and the industries they 
represent with safe and reliable infrastructure.
    We can all agree that one of the basic duties of our 
Federal Government is to provide the necessary resources for 
commerce to flow freely across this Nation. I am pleased that 
this bill provides greater flexibility to local, non-Federal 
stakeholders. It will allow them to fund feasibility studies 
and receive reimbursement during the project construction phase 
instead of waiting until the completion of the project.
    In Nebraska this will be especially beneficial to our 
natural resource districts. These districts are ready to move 
forward on projects, and they are best equipped to manage water 
and protect communities.
    Furthermore, this legislation includes real reforms for 
State municipalities who face unfunded combined sewer overflow 
mandates. Communities like Omaha, Nebraska, would be enabled to 
develop integrated management plans which will allow them to 
prioritize human health benefits versus environmental impacts.
    I am most excited that the WRDA 2016 would eliminate the 
EPA's flawed median household income affordability measurement, 
which has caused great financial distress for fixed and low 
income families.
    While this bill contains many great provisions, I am 
concerned that it does not address much needed regulatory 
relief for on-farm fuel storage. During the WRRDA 2014 process, 
I worked with then-Chairman Boxer in a good faith effort to 
address concerns raised by my constituents about the EPA's plan 
to require farms to prepare and implement spill prevention 
control and countermeasure, or SPCC, plans. We were able to 
pass a provision that required the EPA, in consultation with 
the Department of Agriculture, to conduct a study to determine 
the appropriate exemption level ``to not more than 6,000 
gallons and not less than 2,500 gallons based on a significant 
risk of discharge to water.''
    The intent of this provision was to place boundaries on the 
EPA and ensure the Agency is not overregulating on farm fuel 
storage at capacities that do not pose a significant risk or 
harm to water quality. Simply put, if the EPA cannot find a 
significant risk, then the regulation is unwarranted.
    Unfortunately, on June 30th, 2015, the EPA released its 
study recommending a minimum total above ground storage 
capacity of 2,500 gallons in order to comply with SPCC rules. 
The study contained numerous assumptions, and it lacked strong 
scientific evidence for such a recommendation. For instance, 
seven examples the EPA uses in the study did not occur on a 
farm or a ranch. One of the examples cited even lists a spill 
of 3,000 gallons of jet fuel.
    While I don't have those specific numbers, I would guess 
from my own production agriculture experience it would be hard 
to find many farms with storage tanks filled with jet fuel.
    This overreach continues to weigh heavily on the minds of 
farmers and ranchers in Nebraska and all across this country. 
It is time this committee addresses this issue and focuses on 
providing relief. While I am disappointed the committee failed 
to address this important issue, I will continue to work with 
the Chairman and our Ranking Member and all our colleagues to 
prioritize regulatory relief when WRDA 2016 reaches the floor.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you very much. And let me assure you 
I am just as concerned about this as you are, and we will be 
working with you, and we are going to see this thing through.
    Our eleventh one just came in, Senator Rounds.
    First of all, we will begin with a manager's amendment, S. 
2848, marked as Inhofe-Boxer No. 1. This amendment makes 
technical and conforming changes to the bill. It clarifies some 
of the authorities provided in the bill.
    [The text of the manager's amendment offered by Senators 
Inhofe and Boxer follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Inhofe. Does any Senator seek recognition on this 
amendment?
    [No audible response.]
    Senator Inhofe. I move to accept this amendment. Is there a 
second?
    Senator Boxer. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. The matter is agreed to.
    Does any Senator seek recognition concerning the bill or to 
offer amendments to the bill?
    [No audible response.]
    Senator Inhofe. Seeing no further members seeking 
recognition to offer amendments, is there a motion to report S. 
2848, as amended, favorably to the Senate?
    Senator Boxer. So moved.
    Senator Inhofe. Is there a second?
    Senator Vitter. Second.
    Senator Inhofe. Is there a roll call requested?
    Senator Fischer. Yes.
    Senator Inhofe. A roll call is requested. The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Merkley.
    Senator Boxer. Oh, he is here. Sorry, Jeff.
    [Laughter.]
    Senator Carper. Senator Gillibrand is here now, too, if she 
wishes to vote.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 19, the nays are 1.
    Senator Inhofe. And the legislation is reported favorably 
to the Senate.
    The Corps has made some last minute changes to the study 
resolutions. I ask unanimous consent that these be revised, 
resolutions replaced, the study resolutions that we have 
circulated with this markup. Is there objection to the 
unanimous consent request?
    [No audible response.]
    Senator Inhofe. Hearing none, so ordered.
    [The referenced information follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    Senator Inhofe. Is there a motion to report S. 2808, S, 
2824, and two GSA resolutions and six Corps study resolutions 
en bloc?
    Senator Boxer. So moved.
    Senator Inhofe. Second?
    Senator Vitter. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Objection, no.
    [No audible response.]
    Senator Inhofe. They are accepted.
    Without objection, the legislation and the resolutions are 
reported favorably to the committee.
    OK, I ask unanimous consent that the staff be authorized to 
make technical and conforming changes to the measures approved 
today. Without objection, so ordered.
    With that, our business meeting is concluded. And maybe a 
new record has been set. I don't know. I appreciate everyone 
coming in.
    [Applause.]
    Senator Boxer. Well, a new record has been set for many 
reasons, and I am just so proud of this committee when we do 
this, when we say it can't be exactly as we want it. It is 
wonderful.
    And for the benefit of our beautiful granddaughter over 
there, I think I want to tell her something. This was a good 
day, and you helped us. Thank you for being here.
    Senator Inhofe. That is right.
    Oh, yes, Senator Cardin.
    Before you speak, Senator Cardin, let me just mention to 
some who are observing today. We do have, at 9:30, a very 
significant Armed Services Committee meeting. We have nine 
members in common, and we will have both General Dunford and 
Secretary Carter.
    Senator Cardin is recognized.
    Senator Cardin. Thank you, Mr. Chairman. I wanted to make 
sure we got through the business part in case people had to 
leave for other voting sessions, because I am strongly 
supporting this bill.
    I thank both you and the Ranking Member for the manner in 
which you worked together in order to put together this bill 
that will really help our water infrastructure and our water 
needs around the Nation as well as our economy and our safety. 
For all those reasons I am very pleased that it has a strong 
provision on water infrastructure, including many provisions 
that were included in the True Leadership Act.
    Thank you for dealing with how we deal with lead poisoning, 
which Senator Boxer pointed out is not just limited to Flint. I 
am glad Flint is taken care of, but it also deals with issues 
that we have in Baltimore City, where we have water connections 
to our schools and to homes where there is lead pipe that is 
exposing children to lead poisoning. Now, in Baltimore we don't 
use our water fountains because of that.
    This bill will provide a $300 million 5-year program for 
schools and low income families so that they can get 
connections to public water that is safe drinking water for 
their families. It also includes $100 million for school and 
childcare lead testing programs and many other provisions that 
deal with lead poisoning, which I think is extremely important.
    Also, I would hope we would encourage the Environmental 
Protection Agency to advance the updated lead and copper rules.
    It also, I might say on the Chesapeake and on oyster 
restoration, provides additional resources. We are very 
appreciative about that. And streamlines the request for 
regulatory process for oyster agriculture.
    If I might, there is one aspect that I know is not included 
in the bill, Mr. Chairman, that you have been working on with 
us, and that is to get a more realistic level for the State 
Revolving Funds. I understand that there is an issue of whether 
we can find the revenue offset, and I certainly understand 
that. And I look forward to working with the Chairman and the 
Ranking Member as this bill moves forward to see whether we 
can't increase those limits to more authorizations and 
reauthorize and have a more realistic number reflecting the 
current needs under the State Revolving Funds.
    With that, Mr. Chairman, again, I thank you very much for 
all your help.
    Senator Inhofe. Well, thank you, Senator Cardin.
    I also want to thank all the staff, because this was heavy 
staff duty. It didn't take near as much time for the Ranking 
Member and me as it did the staff, so we appreciate that very, 
very much.
    Senator Carper. Mr. Chairman.
    Senator Inhofe. Yes.
    Senator Carper. If I could be recognized, please.
    Senator Inhofe. Yes.
    Senator Carper. Let me just start off by saying kudos, 
Bravo Zulu. In the Navy, that is what we say when people do a 
job well done. Bravo Zulu to you and your staffs and to our own 
staff. I am grateful to you all.
    I especially want to thank you for provisions that expand 
our ability that are included in this bill to put dredged 
materials back to use to protect our coasts from flooding and 
to restore our ecosystems. This will help communities save 
money on critical flood protection that are becoming more and 
more important as we face more extreme weather events.
    I also should note the important language that was included 
to ensure that Federal coordination on extreme weather and sea 
level rise, and I would like to thank my colleagues for your 
assistance in helping to make sure that our Nation has a 
coordinated and consistent approach to the research, to the 
data, and the investments that make our coastal communities 
more resilient.
    However, for the U.S. to become truly resilient to climate 
change and our coastal communities, we need to do more, and 
that is why I filed an amendment that would require the U.S. 
Army Corps of Engineers to develop a 10-year schedule for their 
priority beach and inlets. This amendment would have helped 
ensure that their coastal districts make the best possible use 
of their limited funds. This kind of priority list would also 
help to demonstrate the extent of the need of the 
vulnerabilities that result from underfunding and project 
delays.
    I recognize the committee has done a lot of good work to 
achieve the same goals of prioritizing critical projects and 
achieving adequate flood protections, so I do not ask for a 
vote on that today, but I look forward to working with our 
Chairman and our Ranking Member on this issue in the future.
    Senator Inhofe. Let me interrupt for just a moment, if I 
could. I am going to go ahead and authorize Senator Boxer to 
conclude the meeting so we can get to our Armed Services 
hearing.
    Senator Carper. You don't want to hear the rest of what I 
have to say here?
    [Laughter.]
    Senator Carper. I will see you at Bible study. We will pray 
over it.
    Another issue I want to look forward to working with our 
Chairman and Ranking Member on is an amendment that creates a 
Delaware River Basin restoration program. The Delaware River 
Basin is home to more than 8 million people, a lot of people, 
and is the source of drinking water for more than 15 million 
people, including the populations of New York City and 
Philadelphia.
    This river is the longest undammed river east of the 
Mississippi, and it contributes approximately $25 billion 
annually in economic activity, including sustaining vital 
fisheries and tourism. It is also of critical ecological 
importance, providing habitat to hundreds of species of fish 
and migrating birds.
    Other major watersheds in the U.S. benefit from coordinated 
planning and dedicated funding for regional protection and 
restoration efforts. The Delaware River watershed is among the 
Nation's most important systems in terms of its essential 
resources it provides to people, to fish, and to wildlife. Yet 
it receives a fraction of the funding and protection it needs.
    My Amendment No. 3 would have addressed this imbalance by 
creating a Delaware River Basin restoration program within the 
U.S. Fish and Wildlife Service, and this new program would 
ensure funding is rightfully invested in the watershed and 
encourage innovative preservation strategies that would help 
make those investments go further.
    This amendment is the same language as S. 921, the Delaware 
River Basin Conservation Act, which is co-sponsored by other 
colleagues in the Delaware River Basin, including Senators 
Gillibrand and Booker.
    With that, Madam Chairman, I will call it a day, at least a 
morning. Thank you.
    Senator Boxer [presiding.] Well, thank you so much.
    Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chairman.
    Senator Boxer. Well, for the moment. And don't say that too 
loudly.
    [Laughter.]
    Senator Merkley. I am delighted that this bill has gone 
forward and is where it is right now. I particularly wanted to 
express appreciation for several of the issues that are 
addressed in this bill that are important to my home State.
    One of them is WIFIA, Water Infrastructure Finance and 
Invasion Act. This is legislation that I know that my colleague 
from California has worked on, that I have worked on, and is 
going to create a substantial amount of financing for clean 
water supply and wastewater treatment.
    I do want to note that I would like to see us continue a 
conversation about having the steel involved, be Build America 
steel. Just as we wanted to make sure our bridges were built 
with American steel, our water supply systems and water 
treatment systems should be, as well.
    This bill does address a longstanding challenge in the 
Columbia. Columbia, several major dams went in, and the Federal 
Government had promises to provide relocation assistance to 
tribes that had villages up and down the Columbia that were 
flooded. Did not fulfill those promises, and now we are 
starting a path to fulfill those promises here many, many 
decades later. It is way past time to rectify the situation, 
and this bill has key language that puts us on track for 
several major projects related to that.
    I also wanted to mention the assistance and authorization 
for small ports and harbors, essential for the Oregon coast. 
Provisions addressing invasive species, which are of 
substantial concern. Once established, an invasive species can 
cause havoc and be incredibly expensive as well, so we have to 
be ahead of the problem.
    And there are other pieces of this that involve things like 
the Lower Columbia River ecosystem and the Turning Basin, and 
many provisions that make a lot of sense and help in many ways. 
So thank you for your work, thank you for Chair Inhofe's work, 
the staff team that came together. It has been a very 
productive dialogue. Thank you.
    Senator Boxer. Well, thank you.
    If there is no other--oh, hi, Senator. Senator Sullivan, go 
ahead.
    Senator Sullivan. Madam Chair, I just want to take the 
opportunity to thank you and the Chairman, but thank you in 
particular for your commitment and leadership on this issue. I 
think it is a great example of where we are working in a 
bipartisan manner. And I want to thank your staff. We are 
talking about aging infrastructure here.
    As the committee members know, I have been emphasizing a 
lot, not just aging infrastructure, but no infrastructure. And 
there are a number of communities in my State, but other places 
in the country that have no infrastructure in terms of water 
and sewer. Unfortunately, I think it is an embarrassment to 
America as a great country that we are. Some of these 
communities have diseases that are third world levels. 
Americans with third world disease levels in terms of ear 
infections, skin infections because the basic structure that 
most Americans believe we should have in terms of clean water 
and sewer, flush toilets, unfortunately a lot of Americans 
don't have that, and, unfortunately, a lot of them are in my 
State.
    So I really want to thank you because you and your team 
made a commitment, and we all worked together on this. And I 
know between you and the Chairman, this has been a priority, 
and I appreciate your leadership, I appreciate the Chairman's 
leadership. I am proud of what is in this bill, and I am proud 
it is a bipartisan bill, and I think this is some of the good 
that our country needs right now. So thank you.
    Senator Boxer. Well, I can't thank you enough, because you 
are passionate about the problems you have seen with your own 
eyes, and you didn't turn away from people who don't have a lot 
of power. It means a lot.
    And I just want to say, I know I speak for Senator Inhofe, 
how much we appreciate not only our own staff, but the staffs 
of all the members here sitting very quietly. They all weighed 
in for their Senator, and we came together, we did something 
good, and there is just three of us here, so we can't comment 
for anybody else, but I hope the three of us will really take 
this to Senators McConnell and Reid and say, look, 19 to 1. 
Nothing happens here 19 to 1. Even a resolution on Mother's 
Day. Somebody would say, well, my mother was not nice to me 
today; I am not going for it.
    So we have a great product. So I hope that both of you, if 
we all go to see these two leaders on the floor, we can get 
some time and get this done and send a message to the country 
that we still can function, which I think sometimes they doubt.
    So thank you all again. Senator Inhofe went to another 
hearing he had to be here at, and I just want to say working 
with him and his staff, for us, when we can work together, is 
just a joy. I really mean it, and they know I mean it. And to 
all of you, thank you so much.
    We stand adjourned.
    [Whereupon, at 9:26 a.m. the committee was adjourned.]

                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
</pre></body></html>
